Case No.

n
Supreme eourt of tile nib $tat

SCOTT ERIK STAFNE
Petitioner,

v.
THOMAS ZILLY ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit.

CERTIFICATE OF SERVICE

SCOTT E. STAFNE Petitioner pro se
239 North Olympic Avenue
Arlington, WA 98223
TELEPHONE: 360.403.8700
Email: Scott@Stafnelaw.com
February 1, 2021

Church of ttwGarclep'Press
htitthafthetardetti.:btk

CERTIFICATE OF SERVICE
I, Scott E. Stafne, petitioner pro se, hereby certify that on this 1st
day of February, 2021, I caused to be electronically served the Petition
for. Writ of Certiorari to give Notice of Placement on the US Supreme
Court Docket as agreed by the following parties:
Jared Hager, Assistant U.S. Attorney
Firm: 503.727.1000
1000 S.W. Third Avenue
Suite 600
Portland, OR 97204
Jared.Hager@usdoj.gov
Geoffrey Alan Enns, Attorney
Direct: 425-388-6334
[COR LD NTC Dep County Counsel]
Snohomish County Prosecuting Attorney
3000 Rockefeller Avenue
M/S 504
Everett, WA 98201
Geoffrev.Enns@co.snohomish.wa.us
DATED this 1st day of February 2021,

SCOTT E. STAFNE, Petitione pro se
STAFNE LAW Advocacy & Consulting
239 North Olympic Avenue
Arlington, WA 98223
Telephone: 360.403.8700
Email: Scott@StafneLaw.com

